App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NOB HILL GENERAL STORES, No. 19-72429
INC.,
NLRB No.
Petitioner,
20-CA-209431
v.

MEMORANDUM*

NATIONAL LABOR
RELATIONS BOARD,

(Filed Dec. 24, 2020)

Respondent,
UNITED FOOD AND
COMMERCIAL WORKERS
UNION, LOCAL 5,
Intervenor.
NATIONAL LABOR
RELATIONS BOARD,
Petitioner,

No. 19-72523
NLRB No.
20-CA-209431

v.
NOB HILL GENERAL STORES,
INC.,
Respondent.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
UNITED FOOD AND
COMMERCIAL WORKERS
UNION, LOCAL 5,
Intervenor.
On Petition for Review of an Order of the
National Labor Relations Board
Argued and Submitted November 18, 2020
San Francisco, California
Before: THOMAS, Chief Judge, and SCHROEDER
and BERZON, Circuit Judges.
Nob Hill General Stores, Inc. (“Nob Hill”) petitions
for review of an order of the National Labor Relations
Board (“the Board”). The Board determined that Nob
Hill violated Section 8(a)(5) and (1) of the National Labor Relations Act by failing to provide information requested by Intervenor United Food and Commercial
Workers Union, Local 5 (“the Union”) for the purpose
of administering the collective bargaining agreement
(“CBA”). The Board cross-petitions for enforcement of
the order. We deny Nob Hill’s petition for review and
grant the Board’s cross-petition.
1. It is an unfair labor practice for an employer
to refuse to provide a union with information relevant
to its duties, including the administration of a CBA.
NLRB v. Associated Gen. Contractors of Cal., Inc., 633
F.2d 766, 770 (9th Cir. 1980). “The Board may order
production of information relevant to a dispute if
there is some probability that it would be of use to
the union in carrying out its statutory duties and

App. 3
responsibilities” under the CBA, even when there is a
dispute as to whether the underlying CBA issue could
give rise to a potentially meritorious grievance. NLRB
v. Safeway Stores, Inc., 622 F.2d 425, 430 (9th Cir.
1980). Although we interpret CBAs de novo, see Int’l
Longshore & Warehouse Union, Local 4 v. NLRB, 978
F.3d 625, 640–41 (9th Cir. 2020), where the issue is
information production, we need only determine that
there is “some probability” that the information would
be useful to administration of the CBA. Safeway
Stores, Inc., 622 F.2d at 430.
Nob Hill contends that the language of its CBA
with the Union entirely forecloses any probability that
the information requested in this case could be useful
to the Union in administering the CBA. For this position, Nob Hill relies on the “notwithstanding clause” in
section 1.13, which reads, in relevant part: “Notwithstanding any language to the contrary contained in
this Agreement between the parties, it is agreed this
Agreement shall have no application whatsoever to
any new food market or discount center until ﬁfteen
(15) days following the opening to the public of any new
establishment.”
As Nob Hill stresses, “a ‘notwithstanding’ clause
clearly signals the drafter’s intention that the provisions of the ‘notwithstanding’ section override conﬂicting provisions of any other section.” Cisneros v. Alpine
Ridge Grp., 508 U.S. 10, 18 (1993). But a “notwithstanding” clause is necessarily tethered to other language that determines its scope; the clause has no
independent meaning. Here, the “notwithstanding”

App. 4
clause precludes the application of the CBA “to any
new food market or discount center” for ﬁfteen days after opening. But the provisions that the Union sought
to administer, such as section 4.9, governing transfers
of employees, and section 1.11, relating to individual
contracts between covered employees and Nob Hill,
applied to currently covered employees. That the issues here involve changes resulting from the new store
does not necessarily mean that applying those provisions to current employees is equivalent to applying the
CBA to the new store.
Nob Hill argues that the Board erred in reading
section 1.13 as an “after acquired stores clause,” affecting only Nob Hill’s obligation to recognize the Union
for the new store under section 1.1 of the CBA after 15
days have passed. See Alpha Beta Co., 294 NLRB 228,
229 (1989). The clause may apply more broadly, delaying other CBA provisions as well as section 1.1. See
Raley’s, 336 NLRB 374, 377 (2001) (describing section
1.13 as “delay[ing] application of the other provisions
. . . to new stores”). Nob Hill asserts, for instance, that
the Union cannot enforce section 1.13’s requirement
for a new store to be staffed by a cadre that includes
current employees until after the store has been
opened for ﬁfteen days. The Union argues that the section applies by its language to current employees and
includes a provision continuing trust fund contributions for employees in the “cadre,” demonstrating its
continuous application. But disputes of this kind over
whether a grievance alleging potential violations before and after the ﬁfteen-day period could succeed do

App. 5
not foreclose the Board’s relevance determination for
information production purposes. See Safeway Stores,
Inc., 622 F.2d at 430. Neither this Court nor the Board
is required to “decide whether a contract violation
would be found” to determine that an information request is relevant to contract administration. Dodger
Theatricals Holdings, 347 NLRB 953, 970 (2006).
“[W]hen it order[s] the employer to furnish the requested information to the union, the Board [is] not
making a binding construction of the labor contract.”
NLRB v. Acme Indus. Co., 385 U.S. 432, 437 (1967).
The “notwithstanding” clause therefore does not
allow Nob Hill to refuse to provide information relevant to current employees’ interests under the CBA in
connection with the future opening of a new store.
2. Substantial evidence supports the Board’s determination that the Union’s information request was
relevant to administering the CBA. The Union bears
the burden of showing relevance for information concerning employees outside the bargaining unit, but
that showing is subject to “a liberal, ‘discovery-type’
standard,” Press Democrat Publ’g Co. v. NLRB, 629
F.2d 1320, 1325 (9th Cir. 1980) (quoting Acme, 385 U.S.
at 437), and requires only a “probability that the desired information was relevant, and that it would be of
use to the union in carrying out its statutory duties
and responsibilities,” Acme, 385 U.S. at 437. “[T]he
Board’s determination as to whether the requested information is relevant in a particular case is given great
weight by the courts.” San Diego Newspaper Guild, Local No. 95 v. NLRB, 548 F.2d 863, 867 (9th Cir. 1977).

App. 6
Applying the deference due the Board’s determination, we uphold the Board’s conclusion that information about the classiﬁcations and numbers of
positions at the new store and the unit and non-unit
employees who requested and were offered transfers,
could be useful to assess the application of the CBA’s
transfer and stafﬁng provisions to unit employees. Information about how unit members could request a
transfer and how members could be hired at the new
store relate to the terms of transfer of currently represented employees. See Kansas Educ. Ass’n, 275 NLRB
638, 640 (1985). Pay scales, beneﬁt plans, and the employee handbook of the new store could have been of
use to the Union’s enforcement of section 1.11’s prohibition on individual employment agreements that reduce wages and beneﬁts of covered employees.
Given the “great weight” afforded the Board in
determining whether the Union met its burden, San
Diego Newspaper Guild, 548 F.2d at 867, the Board’s
relevance conclusion was not erroneous.1
The petition is DENIED, and the Board’s order is
ENFORCED.

1

Nob Hill does not contest the Board’s determination that
Nob Hill’s nearly three- month delay in providing some of the requested information was unreasonable and a separate violation
of Section 8(a)(5) and (1) of the National Labor Relations Act. As
we afﬁrm the Board’s relevance conclusion, the Board is entitled
to enforcement of its decision and order as to the delay.

App. 7
United States Court of Appeals
for the Ninth Circuit
Notice of Docket Activity
The following transaction was entered on 02/23/2021
at 11:18:26 AM PST and ﬁled on 02/23/2021
Case Name:

Nob Hill General Stores, Inc. v. NLRB

Case Number:

19-72429

Docket Text:
Filed text clerk order (Deputy Clerk: AF): The request
for publication, Dkt. No. [56], is denied. [12013483] [1972429, 19-72523] (AF)

App. 8
NOTICE: This opinion is subject to formal revision before publication in the bound volumes of NLRB
decisions. Readers are requested to notify the Executive Secretary, National Labor Relations Board,
Washington, D.C. 20570, of any typographical or
other formal errors so that corrections can be included in the bound volumes.
Nob Hill General Stores, Inc. and United Food
and Commercial Workers Union, Local 5.
Case 20–CA–209431
August 29, 2019
DECISION AND ORDER
BY CHAIRMAN RING AND
MEMBERS KAPLAN AND EMANUEL
On January 31, 2019, Administrative Law Judge
Amita Baman Tracy issued the attached decision. The
Respondent ﬁled exceptions and a supporting brief, the
General Counsel and the Charging Party ﬁled answering briefs, and the Respondent ﬁled a reply brief. The
General Counsel and the Charging Party ﬁled crossexceptions and supporting briefs, to which the Respondent ﬁled a combined answering brief. The Charging
Party also ﬁled an answering brief in support of the
General Counsel’s cross-exceptions as well as a reply
brief in support of its own cross-exceptions.
The National Labor Relations Board has delegated its authority in this proceeding to a threemember panel.
The Board has considered the decision and the
record in light of the exceptions and briefs and has

App. 9
decided to afﬁrm the judge’s rulings, ﬁndings, and conclusions1 and to adopt the recommended Order as modiﬁed.2
1

We agree with the judge that the information requested by
the Charging Party regarding the opening of the new Santa Clara
store is relevant to the administration of its collective-bargaining
agreement with the Respondent, and that the Respondent’s failure to provide certain information and unreasonable delay in
providing other information therefore violated Sec. 8(a)(5) and (1)
of the Act. We ﬁnd it unnecessary to rely on the judge’s alternative ﬁndings that the information requested is also relevant to
counseling unit members regarding potential transfers to the
Santa Clara store or bargaining over the effects of the opening of
the Santa Clara store.
2
The General Counsel and the Charging Party each ﬁled a
cross-exception to the judge’s remedy requiring the Respondent to
post the notice only at the Respondent’s store in Santa Clara, California. We ﬁnd merit in their exceptions. The notice should be
posted at the Respondent’s stores where affected employees perform their duties and would thereby have an opportunity to read
it. See Postal Service, 345 NLRB 426, 426 fn. 3 (2005), enfd. 486
F.3d 683 (10th Cir. 2007); Southwestern Bell Telephone Co., 235
NLRB 963, 963 fn. 3 (1978). Here, all bargaining unit employees
could have requested transfers to the Santa Clara store, and
therefore all unit employees were potentially affected by the Respondent’s unfair labor practices. Accordingly, we shall modify
the judge’s recommended Order to require that the notice be
posted in all of the Respondent’s stores where bargaining unit employees work, as well as the Santa Clara store where several former bargaining unit employees work.
The Charging Party has requested numerous additional remedies for the violations found. We deny these requests because the
Charging Party has not established that the Board’s traditional
remedies are insufﬁcient to ameliorate the effects of the Respondent’s unfair labor practices. See, e.g., Nexstar Broadcasting, Inc.
d/b/a KOIN-TV, 367 NLRB No. 117, slip op. at 1 fn. 3 (2019);
Alstyle Apparel, 351 NLRB 1287, 1288 (2007) (denying request for
a broad cease-and-desist order where the General Counsel had

App. 10
ORDER
The National Labor Relations Board adopts the
recommended Order of the administrative law judge as
modiﬁed below and orders that the Respondent, Nob
Hill General Stores, Inc., West Sacramento, California,
its ofﬁcers, agents, successors, and assigns, shall take
the action set forth in the Order as modiﬁed.
1.

Substitute the following for paragraph 2(b).

“(b) Within 14 days after service by the Region,
post at its store located at 3555 Monroe Street, Suite
90, Santa Clara, California, and at all of its stores
within the geographical jurisdiction of the United Food
and Commercial Workers Union, Local 5, where bargaining unit employees are employed, copies of the attached notice marked “Appendix.”3 Copies of the notice,
on forms provided by the Regional Director for Region
20, after being signed by the Respondent’s authorized
representative, shall be posted by the Respondent and
maintained for 60 consecutive days in conspicuous
places, including all places where notices to employees
are customarily posted. In addition to physical posting
of paper notices, notices shall be distributed electronically, such as by email, posting on an intranet or an
internet site, and/or other electronic means, if the
not shown that traditional remedies were insufﬁcient to address
the violations found in the case).
3
If this Order is enforced by a judgment of a United States
court of appeals, the words in the notice reading “Posted by Order
of the National Labor Relations Board” shall read “Posted Pursuant to a Judgment of the United States Court of Appeals Enforcing an Order of the National Labor Relations Board.”

App. 11
Respondent customarily communicates with its employees by such means. Reasonable steps shall be
taken by the Respondent to ensure that the notices are
not altered, defaced, or covered by any other material.
If the Respondent has gone out of business or closed
the facility involved in these proceedings, the Respondent shall duplicate and mail, at its own expense, a copy
of the notice to all current employees and former employees employed by the Respondent at any time since
September 25, 2017.”
Dated, Washington, D.C. August 29, 2019
John Ring,

Chairman

Marvin E. Kaplan,

Member

William J. Emanuel,

Member

App. 12
(SEAL)

NATIONAL LABOR RELATIONS BOARD

Min-Kuk Song, Esq., for the General Counsel.
Henry F. Telfeian, Esq., for Respondent.
David A. Rosenfeld, Esq., for the Charging Party.
DECISION
STATEMENT

OF THE

CASE

AMITA BAMAN TRACY, Administrative Law Judge.
This case was tried based on a joint motion and stipulation of facts approved by me on July 23, 2018.1
The United Food and Commercial Workers Union,
Local 5 (the Union or the Charging Party) ﬁled the
original charge on November 3, 2017,2 and first
amended charge on February 16, 2018. The General
Counsel issued the complaint on March 6, 2018.3 Nob
Hill General Stores, Inc. (Respondent) ﬁled a timely
answer denying all material charges.

1

The ﬁndings of fact in this decision are based entirely upon
the parties’ stipulation of facts. However, many of these facts are
actually responsive to the Union’s information request at issue in
this proceeding. The General Counsel’s brief notes that these stipulated facts that are responsive to the contested information request such as the number of employees and their bargaining unit
status were only provided during these proceedings, and not any
time prior (GC Br. at 9, fn. 12-13).
2
All dates hereinafter are in 2017, unless otherwise noted.
3
Via the joint motion to submit stipulated record, the General Counsel seeks to amend complaint paragraph 9(a) due to an
incorrect date: “October 31, 2018” should be amended to “October
31, 2017.” The unopposed amendment is hereby granted.

App. 13
The complaint alleges Respondent violated Section 8(a)(5) and (1) of the National Labor Relations Act
(the Act) by failing and refusing or unreasonably delaying providing the Union with requested information
relevant and necessary for the Union to discharge its
duties.
On the entire record, and after considering the
briefs ﬁled by the General Counsel, the Charging
Party, and Respondent,4 I make the following
FINDINGS
I.

OF

FACTS

JURISDICTION

At all material times, Respondent, a California
corporation with an ofﬁce and place of business in West
Sacramento, California (Respondent’s facility), has
been engaged in the business of retail sale of groceries
and related products. During the 12-month period ending November 30, Respondent in conducting its business operations received gross revenues in excess of
$500,000, and purchased and received goods valued in
excess of $5000 directly from sources outside the State
of California. The parties admit and I ﬁnd that Respondent has been an employer engaged in commerce
within the meaning of Section 2(2), (6), and (7) of the
Act, and that the Union is a labor organization within
the meaning of Section 2(5) of the Act.

4

Abbreviations used in this decision are as follows: “Jt. Exh.”
for joint exhibit; “GC Br.” for the General Counsel’s brief; “CP Br.”
for the Charging Party’s brief, and “R. Br.” for Respondent’s brief.

App. 14
II.

ALLEGED UNFAIR LABOR PRACTICES

A. Respondent’s Operations
Respondent, a separate corporation, is part of a
corporate family that operates supermarkets and
other types of food stores in Northern California and
Northern Nevada under various “name banners” including Nob Hill General Stores, Inc. (Jt. Exh. W).
Nearly all non-supervisory employees can be categorized as either in the retail department (a clerk) or as
a meat cutter. The representation of non-supervisory
employees, who are either retail department clerks or
meat cutters, varies by store; at a given store, the Union or its sister locals represent all non-supervisory
employees, represent some non-supervisory employees, or represent no non-supervisory employees. Raley’s,
a California corporation, provides various corporate
support services including labor and human relations
services to all of these stores, and directly operates
some of the stores.5
With respect to Respondent’s stores which have
opened previously in the Union’s (or its predecessor local unions) jurisdiction, Respondent staffed each new
store with a cadre of employees, as deﬁned and used in
5

During the relevant time period, Mark Foley (Foley) held
the position of executive vice president and chief people ofﬁcer for
Raley’s and was a supervisor and agent of Respondent within the
meaning of Secs. 2(11) and 2(13) of the Act. Also Tara Locaso
(Locaso) held the position of Labor Relations Manager for Raley’s
and was an agent of Respondent within the meaning of Sec. 2(13)
of the Act. Finally, Henry Telfeian (Telfeian) was the legal representative of Respondent and an agent of Respondent within the
meaning of Sec. 2(13) of the Act.

App. 15
Section 1.13 of the CBA, from employees who voluntarily sought a transfer to a new store. In all instances,
some existing unit employees, represented by the Union, and some existing non-unit employees transferred
into the new store. Respondent notiﬁed all of its existing unit employees, represented by the Union, of the
opportunity to transfer to and request a transfer to a
new store. Respondent also notiﬁed the employees
working in non-unit stores of the opportunity to transfer and request to transfer to the new store. Respondent did not require or force any employee to transfer to
a new store. All employees who requested a transfer
were considered for transfer, but not all employees who
requested a transfer were granted a transfer.
B. The Union
The following employees of Respondent constitute
a unit appropriate for the purposes of collective bargaining within the meaning of Section 9(b) of the Act
and constitute a unit in existence for many years (the
Unit):
All Retail Department Employees and Meat
Cutters working in Respondent’s stores located within the geographical jurisdiction of
the Union, as described in the collective-bargaining agreement between the Union and
Respondent effective by its terms from October 12, 2014 to October 11, 2017 and extended
by the parties to February 8, 2018.
Since at least January 1, 2000, Respondent has recognized the Union as the exclusive collective-bargaining

App. 16
representative of the Unit (at those store locations and
for those employees where the Union has demonstrated its majority status).6 This recognition has been
embodied in successive collective-bargaining agreements between Respondent and the Union concerning
the terms and conditions of employment of unit employees, the most recent of which was effective by its
terms from October 12, 2014, to October 11, 2017, and
extended by agreement of the Union and Respondent
to February 8, 2018 (Collective-Bargaining Agreement
or CBA) (Jt. Exh. J).
Of relevance in this matter, Section 1.1 concerns
union recognition; Section 1.11 concerns individual
agreements; Section 1.14 of the CBA concerns new
jobs; Section 2.4 concerns hiring when employees are
transferred to jobs covered by the CBA from outside
the Union’s jurisdiction; Section 2.5 concerns new employees; Section 2.6 concerns extra work; Section 4.3.4
concerns recall when employees who have been laid off
for lack of work have seniority rights in recall for jobs
subsequently available; Section 4.9 concerns transfers;
Section 4.10 concerns part-time employees; and Section 5.9 concerns union business (Jt. Exh. J).
Speciﬁcally, Section 1.11, Individual Agreements,
states: The Employer agrees that no employee covered
by this Agreement shall be compelled or allowed to enter into any individual contract or agreement with said
6

During the relevant time period, David Rosenfeld (Rosenfeld) was the legal representative of the Union and agent of the
Union. Also, John Nunes (Nunes) held the position of President
of the Union and was an agent of the Union.

App. 17
Employer concerning wages, hours of work, and/or
working conditions that provides less beneﬁts than
the terms and provisions of this Agreement, except by
written agreement of the Employer, the employee and
the Union. Section 1.13 of the CBA states:
[ . . . ] Notwithstanding any language to the
contrary contained in this [CBA] between the
parties, it is agreed this [CBA] shall have no
application whatsoever to any new food market or discount center until ﬁfteen (15) days
following the opening to the public of any new
establishment. [. . . . ]
The Employer shall staff such new or reopened food market with a combination of both
current employees and new hires, in accordance with current industry practices of staffing such stores with a cadre of current
employees possessing the necessary skills,
ability and experience, plus sufﬁcient new
hires to meet stafﬁng requirements. Employees, who are thus transferred, upon whom
contributions are made to the various trust
funds, shall continue to have contributions to
the several trust funds made on their behalf
in the same manner and in the same amount
per hour as such contributions were made
prior to their transfer.
[. . . . ]
(Jt. Exh. J). Section 4.9, Transfers, states: No employees shall be required to accept a permanent transfer
outside the jurisdiction of this Local Union unless approved by the Union. Requests for transfers, within the

App. 18
Union’s geographical jurisdiction, so an employee may
work nearer his home will be given proper consideration and will not be refused arbitrarily. Similarly, an
employee will not be arbitrarily or capriciously transferred. Management will give proper consideration to
transfer requests.
With regard to Respondent’s stafﬁng of new stores
to be opened within the Union’s jurisdiction, the Union
never ﬁled grievances asserting that Respondent’s
stafﬁng practices as described in Respondent’s operations violated any contractual provision. In addition,
with the exception of this conﬂict in this matter, the
Union never ﬁled an information request or demand
seeking any type of information regarding any store
prior to the date the store opened to the public.
Previously, when Respondent opened a new store
within the Union’s jurisdiction, the parties negotiated
separate agreements that upon proof, offering or availability of the Union’s majority status, the Union would
become the representative of the employees working in
that new store, on a date subsequent to the new store’s
opening. All Respondent’s stores within the Union’s jurisdiction, except the Santa Clara, California Nob Hill
General Store (Santa Clara Store), are covered by the
parties’ CBA.
C. Santa Clara Store
From September 15 through September 22, Respondent posted at store numbers 315, 316, 604, 606,
634, and 635 a physical ﬂyer notice soliciting current

App. 19
employees from those stores to transfer to a new store
that Respondent was opening at 3555 Monroe Street,
Suite 90, Santa Clara, California (Santa Clara Store)
(Jt. Exh. S). The open positions listed in the ﬂyer were
non-supervisory positions normally included in the
bargaining unit. In addition, Respondent posted a notice on Raley’s intranet site, known as “the Pantry”, on
August 17 and on August 24, advising employees of the
availability of jobs in the Santa Clara Store and inviting employees to request a transfer by going to the
posted job opening on the “Raley’s Jobs” website. These
Santa Clara Store’s job openings continued to be
posted on the “Raley’s Jobs” website throughout additional dates in September, October and November (Jt.
Exh. T). Any employees from stores within the Raley’s
family had access to the intranet job notice postings.
Respondent originally scheduled the Santa Clara
Store to open in October, postponed the opening to December, and then ﬁnally opened to the public on January 10, 2018. As of January 10, 2018, a total of 13
current employees sought a transfer to work in the
Santa Clara Store. Any employee working in any of the
store locations listed on Joint Exhibit W was eligible to
request a transfer to the Santa Clara Store. The 13 employees who requested to transfer consisted of the following:
1 Unit employee from Store 615 was not offered a transfer.
1 non-Unit employee from Store 236 accepted
a transfer offer.

App. 20
1 non-Unit employee from Store 315 accepted
a transfer offer.
1 Unit employee from Store 603 accepted a
transfer offer.
3 Unit employees from Store 604 accepted
transfer offers.
1 Unit employee from Store 620 accepted a
transfer offer, but employment terminated
prior to the transfer date.
1 Unit employee from Store 628 accepted a
transfer offer.
2 Unit employees and 1 non-Unit employee
from Store 634 were offered transfer where 1
Unit employee and 1 non-Unit employee accepted the offer while 1 Unit employee declined the offer.
1 Unit employee from Store 635 accepted a
transfer offer.
Furthermore, all non-supervisory employees who
transferred to the Santa Clara Store were volunteers
who requested and accepted transfers.
As of January 10, 2018, 10 existing employees
transferred to and worked at the Santa Clara Store.
The remaining 47 nonsupervisory employees working
in the Santa Clara Store as of January 10, 2018, were
“new hires.” The opening and operation of the Santa
Clara Store has not resulted in the layoff of any unit
employees or in the reduction of any unit employee’s
work hours. Also, the opening and operation of the

App. 21
Santa Clara Store has not resulted in any unit employees then on “lay-off ” status for lack of work during the
pendency of the Union’s information requests. Any positions or work hours vacated by unit employees transferring to the Santa Clara Store have become available
to other unit employees that did not transfer.
The Santa Clara Store employees are not represented by any labor organization. While the Union represented some of the Santa Clara Store employees
when they worked in the Unit at their former work locations, the Union has never represented those employees after they began working at the Santa Clara
Store. Also, prior to the opening of the Santa Clara
Store, Respondent, on an unspeciﬁed date, indicated to
the Union that, absent agreement, it would not recognize the Union in that store without a National Labor
Relations Board conducted election.
D. Timeline of Events Regarding
the Union’s Information Request
On September 25, via letter to Foley, the Union requested that Respondent provide the following information “within the next week”:
(1) Please provide a list of classiﬁcations and
the number of employees in each classiﬁcation
to be initially hired in the store. Let us know
how many in each classiﬁcation will be full
time (40 hours per work) and part time.
(3) Provide a list of those employees who are
currently working in the bargaining unit who

App. 22
have been asked to work in the new store. We
want the names of those employees and the
dates that they were asked to work in the
store.
(4) Please provide a list of all current employees who have indicated their willingness
to work in the store or have agreed to work in
the store as of the date of this request and as
of the date of your reply. Provide the classiﬁcations they will be working in and the wage
rates promised them.
(5) Please provide a copy of any employee
handbook that [Respondent] intend[s] to apply to the employees in the store.
(6) Please provide a statement of the ranges
of rates to be paid to each classiﬁcation of employee in the store.
(7) Please provide a copy of any beneﬁt plans
to be applicable to employees in the store.
(8) When will employees begin actually working in the store? What is the projected opening
date?
The Union also asked for the following information
which is unnumbered in its request:
Please advise us of Nob Hill’s position as to
whether employees who are currently working in the bargaining unit may transfer into
the store and under what circumstances.
Local 5 has members who are working short
hours, not working or who are otherwise

App. 23
available to work in the new store. Please advise Local 5 of how we can make arrangements for them to be hired.
The Union explained that the above information is
necessary and relevant to administer the following
provisions of the CBA (Sections 1.14, 2.4, 2.5, 4.3.4, 4.9,
4.10, 5.9, and various other provisions of the CBA) and
to bargain over the effects of the opening of the Santa
Clara Store (Jt. Exh. K).
On October 18, Respondent, via letter from Locaso,
refused to furnish the information requested by the
Union on September 25. Respondent stated that it was
not obligated to furnish the information because Section 1.13 of the CBA indicates that the CBA does not
apply to the Santa Clara Store but also stated that it
would consider any information requests made by the
Union after the Santa Clara Store had been open to the
public for 15 days (Jt. Exh. L).
On October 31, the Union via letter again requested that the information it ﬁrst requested on September 25, be provided. The Union stated that it was
entitled to this information based on the CBA provisions regarding the stafﬁng of new stores and the continuation of trust fund payments on behalf of unit
employees after those employees transferred to the
Santa Clara Store. The Union requested that the information be provided “within the next 48 hours” (Jt.
Exh. M).
Again on December 5, the Union via letter requested
the information it ﬁrst requested on September 25. The

App. 24
Union reiterated that the Union is entitled to the information because the CBA includes a provision allowing unit employees to staff a new store and because the
information is relevant and necessary for the Union to
administer Sections 1.14, 1.1, 1.11, 1.13, and 2.6 of the
CBA. The Union stated in response to Respondent’s position that the Santa Clara Store is not covered by the
CBA per Section 1.13, “Stafﬁng is a critical issue. The
contract protects the current bargaining unit by allowing them to staff a new store. When a new store opens
it often compete [sic] with existing stores and the right
to transfer and the stafﬁng obligation protects current
employees and the bargaining unit” (Jt. Exh. N).7
On December 13, Respondent via letter again refused to furnish the information the Union ﬁrst requested on September 25. Respondent reiterated that
it was not obligated to provide the information (Jt.
Exh. O). However, in this letter, Respondent did answer the following unnumbered requests from the Union:
Please advise us of Nob Hill’s position as to
whether employees who are currently working in the bargaining unit may transfer into
the store and under what circumstances.
Local 5 has members who are working short
hours, not working or who are otherwise
7

The December 5 letter from the Union references Section
1.14 of the CBA but subsequent correspondences between the parties indicates that the Union intended to address Section 1.13 of
the CBA as originally noted by Locaso in the October 18 letter (Jt.
Exhs. O, P).

App. 25
available to work in the new store. Please advise Local 5 of how we can make arrangements for them to be hired.
On December 19, the Union reiterated its position
that it is entitled to the information it ﬁrst requested
on September 25. The Union explained that it is entitled to the information requested as the CBA includes
a provision requiring Respondent to staff a new store
with a combination of current employees and new
hires (Jt. Exh. P).
On December 23, Respondent responded to the
Union’s December 19 letter, and again stated that its
position remained the same (Jt. Exh. Q).
On December 27, the Union via email from Nunes
to Foley and Locaso, again requested the information
it originally requested on September 25. The Union
stated that it needs the information to represent unit
employees who are accepting a transfer or considering
a transfer to the Santa Clara Store. Nunes set forth
various scenarios as to why the request for information
is relevant and necessary (Jt. Exh. R). Nunes wrote
with regard to the September 25 information request,
[ . . . ] As with Nob Hill and our other contracted Union employers, when new stores
open there are many additional opportunities
afforded current employees and Local 5 members with a process in which to attain those
opportunities contained in the collective bargaining agreements. Some of those opportunities would include job transfers so employees
may work nearer to their homes, promotions,

App. 26
additional full-time positions and more work
hours for part-time workers to name a few. It
is the duty of the Union to monitor these matters and make sure they are performed in a
fair and equitable manner consistent with the
terms of the Union agreement. On the other
hand, if Raley’s employment recruiters are informing Local 5 members the store will be a
non-union operation it is important they have
all the facts before making such an important
decision. It is not possible for the Union to educate current Local 5 Nob Hill members of the
possible pitfalls of accepting such a transfer if
we do not know prospectively the Union members choosing to go to the new store. For example, employees in the pension plan will
cease to be participants which will impact
their retirement income and will also have severe negative effects on their retiree medical
eligibility. It is also important to receive impartial information from the Union on the differences in the medical plans offered by the
company compared to the medical beneﬁts
provided under the Union Trust Fund plan.
[...]
(Jt. Exh. R.)
Since September 25, Respondent has refused to
provide the following information requested by the Union:
(1) Please provide a list of classiﬁcations and
the number of employees in each classiﬁcation
to be initially hired in the store. Let us know

App. 27
how many in each classiﬁcation will be full
time (40 hours per work) and part time.
(3) Provide a list of those employees who are
currently working in the bargaining unit who
have been asked to work in the new store. We
want the names of those employees and the
dates that they were asked to work in the
store.
(4) Please provide a list of all current employees who have indicated their willingness
to work in the store or have agreed to work in
the store as of the date of this request and as
of the date of your reply. Provide the classiﬁcations they will be working in and the wage
rates promised them.
(5) Please provide a copy of any employee
handbook that [Respondent] intend [s] to apply to the employees in the store.
(6) Please provide a statement of the ranges
of rates to be paid to each classiﬁcation of employee in the store.
(7) Please provide a copy of any beneﬁt plans
to be applicable to employees in the store.
(8) When will employees begin actually working in the store? What is the projected opening
date?

App. 28
ISSUES PRESENTED

The parties stipulated as to the following:
1. Whether Respondent violated Section 8(a)(1)
and (5) of the Act by failing and refusing to furnish the
Union with the information it requested on September
25, identiﬁed in items 1 and 3 to 8 of subparagraph 9(a)
of the complaint, and as follows:
(1) Please provide a list of classiﬁcations and
the number of employees in each classiﬁcation
to be initially hired in the store. Let us know
how many in each classiﬁcation will be full
time (40 hours per work) and part time.
(3) Provide a list of those employees who are
currently working in the bargaining unit who
have been asked to work in the new store. We
want the names of those employees and the
dates that they were asked to work in the
store.
(4) Please provide a list of all current employees who have indicated their willingness
to work in the store or have agreed to work in
the store as of the date of this request and as
of the date of your reply. Provide the classiﬁcations they will be working in and the wage
rates promised them.
(5) Please provide a copy of any handbook
that [Respondent] intend[s] to apply to the
employees in the store.
(6) Please provide a statement of the ranges
of rates to be paid to each classiﬁcation of employee in the store.

App. 29
(7) Please provide a copy of any beneﬁt plans
to be applicable to employees in the store.
(8) When will employees begin actually working in the store? What is the projected opening
date?
2. Whether Respondent violated Section 8(a)(1)
and (5) of the Act by unreasonably delaying in furnishing the Union with the information it requested
on September 25, identiﬁed in the unnumbered items
of subparagraph 9(a) of the complaint, and as follows:
(1) Please advise us of Nob Hill’s position
as to whether employees who are currently
working in the bargaining unit may transfer
into the store and under what circumstances.
(2) Local 5 has members who are working
short hours, not working or who are otherwise
available to work in the new store. Please advise Local 5 of how we can make arrangements for them to be hired.
DISCUSSION
A. Respondent Failed to Provide Relevant
and Necessary Information to the Union In the
Performance of Its Duties as the CollectiveBargaining representative of the Unit Employees
The General Counsel argues that the Union explained the relevance of its requested information as
its need to ensure that Respondent (1) complied with
the stafﬁng requirements for new stores set forth in
CBA Section 1.13; (2) did not compel or allow

App. 30
employees covered by the CBA to enter individual contracts or agreements providing less beneﬁts than the
CBA as covered by Section 1.11; and (3) complied with
the transfer provisions of Section 4.9. Furthermore, the
Union explained the relevance for the requested information to engage in effects bargaining. Among its
many arguments, Respondent argues that since the
CBA did not apply to the Santa Clara Store as it was a
new store until 15 days after it was open to the public
the Union had no basis for the information requested.
Moreover, Respondent argues that the Union failed to
provide “speciﬁc facts” to support a “viable and valid”
claim of breach of contract (R. Br. at 25–30). Respondent argues that the Union waived its right to enforce
the contractual provisions it cites (R. Br. at 32–37).
An employer’s duty to bargain includes a general
duty to provide information needed by the bargaining
representative to assess claims made by the employer
relevant to contract negotiations as well as administration of the contract. In addition, an employer is required to furnish the union representing its employees
with information that is relevant to the union in the
performance of its collective-bargaining duties. Piggly
Wiggly Midwest, LLC, 357 NLRB 2344, 2355 (2012);
NLRB v. Acme Industrial Co., 385 U.S. 432, 435–436
(1967); NLRB v. Truitt Mfg. Co., 351 U.S. 149 (1956).
This includes information which concerns the terms
of transfer of bargaining unit employees. See Kansas
Education Assn., 275 NLRB 638, 640 (1985).
Generally, a union’s request for information pertaining to employees in the bargaining unit is

App. 31
presumptively relevant and an employer must provide
the information CVS Albany, LLC, 364 NLRB No. 122,
slip op. at 2 (2016). However, where the information requested concerns non-unit employees, the union bears
the burden of establishing relevancy. Public Service
Electric & Gas Co., 323 NLRB 1182, 1186 (1997). A
union satisfies its burden to do so, if it demonstrates
either “a reasonable belief, supported by objective evidence, that the requested information is relevant,”8 or
“a ‘probability that the desired information was relevant, and that it would be of use to the union in carrying out its statutory duties and responsibilities,’ ”9 The
required showing is subject to a liberal, “discovery-type
standard” and is not an exceptionally heavy one.
DirectSat USA, LLC, 366 NLRB No. 40, slip op. 1, fn. 2
(2018). The union need only show a probability that the
desired information was relevant, and would only be
used by the union to carry out its statutory duties and
responsibilities. But “[t]he union’s explanation of relevance must be made with some precision; and a generalized, conclusory explanation is insufﬁcient to trigger
an obligation to supply information.” Disneyland Park,
350 NLRB 1256, 1258, fn. 5 (2007). The determination
of relevance “depends on the factual circumstances of
each particular case.” San Diego Newspaper Guild, Local No. 95 v. NLRB, 548 F.2d 863, 867 (9th Cir. 1977).

8

Disneyland Park, 350 NLRB 1256, 1257-1258 (2007) (citation omitted).
9
Kraft Foods North America, Inc., 355 NLRB 753, 754 (2010)
(quoting NLRB v. Acme Industrial Co., supra at 437).

App. 32
As explained below, I ﬁnd that Respondent failed
to provide the information requested by the Union
which violates Section 8(a)(5) and (1) of the Act. In this
matter, the Union repeatedly explained that it sought
to administer the CBA regarding the stafﬁng of the
Santa Clara Store as well as to bargain any effects of
its opening. In summary, the Union sought the classiﬁcations and numbers of employees to be hired at the
Santa Clara Store along with the full or part-time status of each position; the Union sought the number of
unit employees asked to work at the Santa Clara Store
as well as the date these employees were asked this
question; a list of all current employees who had indicated a willingness to work or who have agreed to work
in the Santa Clara Store; the employment handbook
which would be applicable to those employees working
in the Santa Clara Store; the ranges of rates of pay for
each employee in the Santa Clara Store; the beneﬁts
applicable to the employees working in the Santa
Clara Store; and the dates of when the employees
would be working in the Santa Clara Store and what
date the Santa Clara Store would be opened to the public. The Union explained the relevancy of such information to its statutory duties and responsibilities via
written correspondence with Respondent from September to December. Generally the Union mentioned
various contractual provisions as well as the potential
for effects bargaining.
After the Union’s initial request, Respondent declined to provide any information claiming that Section 1.13 of the CBA indicated that the CBA would not

App. 33
apply to the Santa Clara Store any sooner than 15 days
after it was open to the public, and thus, the Union had
no contractual need for the information. In response,
the Union explained that it was entitled to the information as Section 1.13 concerning stafﬁng of a new
store as well as the trust fund contributions of unit employees who transferred. To reiterate, Section 1.13
states that Respondent shall staff such new food market with a combination of both current employees and
new hires, in accordance with current industry practices of stafﬁng such stores with a cadre of current employees possessing the necessary skills, ability and
experience, plus sufﬁcient new hires to meet stafﬁng
requirements. In addition, employees, who are thus
transferred, upon whom contributions are made to the
various trust funds, shall continue to have contributions to the several trust funds made on their behalf in
the same manner and in the same amount per hour as
such contributions were made prior to their transfer.
Even after such explanation, Respondent did not respond to the Union and did not provide the Union with
any information. Again, the Union renewed its request
in early December stating that the CBA covers staffing of a new store. Later, in December, the Union
again renewed its request for information, and explained that the Union needed to monitor the transfers
of employees to ensure that the stafﬁng was conducted
in a “fair and equitable manner consistent with the
terms of the Union agreement” (Jt. Exh. R). The Union
also provided information that its members were being informed that the Santa Clara Store would be a
non-union store, and thus, the Union needed this

App. 34
information to “educate” unit employees on the effects
of any transfer to a non-union store.
Based on the parties’ stipulated record, I ﬁnd that
the Union has satisﬁed its burden by showing a probability that the desired information was relevant, and
that it would be of use to the union in carrying out its
statutory duties and responsibilities. Again, the Union’s burden is “not an exceptionally heavy one.” SBC
Midwest, 346 NLRB 62, 64 (2005). Per Section 1.13 of
the CBA, the stafﬁng of the new store would be a mix
of new hires and current employees, some of whom
could have been unit employees. As such, it appears
relevant to the Union’s duties to determine which positions would be ﬁlled by at the Santa Clara Store as
well as the work hours of such positions. In the same
vein, it appears relevant and necessary for the Union
to need the list of employees who have been asked to
work in the Santa Clara Store along with a list of employees (and their classiﬁcations and wage rates) who
were willing to work in the store.
The Union listed other CBA provisions which
could also impact any employee who transferred to the
Santa Clara Store including provisions concerning the
employees’ pension plans as well as transfer provisions. For example, Section 1.11, cited by the Union,
covers employment agreements, and speciﬁes that no
unit employee will be compelled or allowed to enter
into an employment agreement with the Employer
which reduces wages and beneﬁts of the employee. In
addition, Section 4.9 concerns transfers and when
and by whom those should be approved. The Union

App. 35
obviously should know which unit employees sought to
transfer so as to provide them counsel as needed including any beneﬁts that may be changed due to the
transfer. In addition, the need for the employee handbook, range of rates to be paid, and beneﬁt plans is
clear from the Union’s duties to ensure that any unit
members who chose to transfer would be well-informed
as to any difference between their current wages, beneﬁts, and terms and conditions of employment. Furthermore, the need by the Union to know when the
store would be open for employees and the public directly relates to Section 1.13 which states that the
CBA shall apply no sooner than 15 days after a new
store is open to the public—thus, how would the Union
know when to be prepared any bargaining or recognition if the date of the Santa Clara Store’s opening is
not known. Thus, I ﬁnd that the information sought by
the Union was necessary to determine whether Respondent was following the CBA concerning stafﬁng at
the new location as well as any effects on unit employees transferring to the Santa Clara Store.
Moreover, as the Union indicated in its last correspondence of December 27, the Union certainly may
need this information to bargain over the effects of the
opening of the Santa Clara Store. This explanation is
certainly valid, and provides another basis in which
the Union overcomes its burden to prove the probability that the desired information is relevant to fulﬁll its
statutory duties. As Nunes articulated, with the opening of a new store, the unit employees remaining in
their current stores also creates the need for the Union

App. 36
to monitor the CBA to ensure that all provisions are
being met.
Respondent argues that the CBA, speciﬁcally at
Section 1.13, does not apply to the Santa Clara Store,
and thus the information requested was not relevant
and necessary to the Union’s representational duties
(R. Br. at 9). Respondent elaborates that the CBA only
applied to the Santa Clara Store 15 days after the opening of the store, and thus, Respondent had no existing
contractual obligation to the Union at the time of the
information request (R. Br. at 16). The language in Section 1.13 mirrors the language analyzed by the Board
in Raley’s, 336 NLRB 374 (2001). In Raley’s the Board
found that the provision such as in the parties’ CBA at
Section 1.13 is known as an “after acquired stores
clause,” “additional stores clause,” or “after acquired.” Id.
at 376; see also Alpha Beta Co., 294 NLRB 228 (1989).
The Board determined that these types of clauses affected an employer’s obligation to recognize a union at
a new store 15 days after a store opens. However, I do
not ﬁnd that this after acquired provision affects the
Union’s information request regarding the stafﬁng of
the new store, the impact of any transfer by unit employees to the Santa Clara Store, or the applicability of
the CBA to these unit employees as they seek to transfer. Again, the Union’s burden is not a heavy one, but
simply one where the Union should show a probability
that the desired information is relevant. The Board has
afﬁrmed administrative law judge decisions in similar
situations involving whether a union is entitled to requested information to evaluate or process a grievance

App. 37
where the employer refuses to provide the requested
information based on its interpretation of the parties’
collective-bargaining agreement. United-Carr Tennessee, 202 NLRB 729, 731–732 (1973) (employer unlawfully refused to provide certain information to the
union based on its reliance on its own interpretation of
the contract where the employer determined the information was not relevant to the union’s decision to take
a grievance to arbitration). Here too, Respondent may
continue to argue that the CBA does not apply to the
Santa Clara Store until 15 days after the store opens,
but such an argument on any potential grievance or
bargaining issue would only arise in those proceedings,
not under these circumstances where the Union seeks
information to determine whether in its view the CBA
is being followed appropriately. An actual grievance
need not be pending, and it is sufﬁcient if the requested
information is potentially relevant to a determination
as to whether a grievance should be pursued. United
Technologies Corp., 274 NLRB 504 (1985).
Respondent also argues that the Union never requested to bargain even after the Santa Clara Store
opened. However, as the Union never received its requested information, the argument that the Union
never requested to bargain makes little sense. See
NLRB v. Postal Service, 18 F.3d 1089, 1100–1101 (3d
Cir. 1994) (“a union may be entitled to information
[probative of discrimination] before it has made a bargaining demand”). The relevance for the information
requested is clear—the Union sought to ensure that
the parties’ agreement regarding the stafﬁng for the

App. 38
Santa Clara Store was being followed along with other
provisions of the CBA including the transfer provisions.
To the extent Respondent argues that the Union
waived its rights to enforce the contractual provisions
cited in support of its claim for relevance, the Board
requires a waiver of a party’s statutory right to be clear
and unmistakable. Metropolitan Edison Co. v. NLRB,
460 U.S. 693 (1983); Timken Roller Bearing Co., 138
NLRB 15, 16 (1962). “A clear and unmistakable waiver
may be found in the express language and structure
of the collective-bargaining agreement or by the
course of conduct of the parties. The burden is on the
party asserting waiver to establish that such a waiver
was intended.” Leland Stanford Junior University, 307
NLRB 75, 80 (1992). Respondent presented no evidence to support its burden of proof that the Union
waived its right to enforce the contractual provisions.
Accordingly, Respondent violated Section 8(a)(5)
and (1) of the Act when it refused to provide the Union
relevant and necessary information it requested on
September 25, and repeated on October 31, December
5, December 19, and December 27,
B. Respondent Unreasonably Delayed
Providing Information to the Union
The General Counsel argues that Respondent
violated Section 8(a)(5) of the Act when it provided
the following information in an untimely manner:
(1) Please advise us of Nob Hill’s position as to whether

App. 39
employees who are currently working in the bargaining unit may transfer into the store and under what
circumstances; and (2) Local 5 has members who are
working short hours, not working or who are otherwise
available to work in the new store, and please advise
Local 5 of how we can make arrangements for them to
be hired. Respondent argues that it did not need to
provide the information, and Respondent had timely
responded to the Union’s requests.
“[A]n unreasonable delay in furnishing such information is as much of a violation of Section 8(a)(5) of
the Act as a refusal to furnish the information at all.”
Monmouth Care Center, 354 NLRB 11, 41 (2009) (citations omitted), reafﬁrmed and incorporated by reference, 356 NLRB 152 (2010), enfd. 672 F.3d 1085 (D.C.
Cir. 2012). “[I]t is well established that the duty to furnish requested information cannot be deﬁned in terms
of a per se rule. What is required is a reasonable good
faith effort to respond to the request as promptly as
circumstances allow.” Good Life Beverage Co., 312
NLRB 1060, 1062 fn. 9 (1993). “In evaluating the
promptness of the employer’s response, the Board will
consider the complexity and extent of information
sought, its availability, and the difﬁculty in retrieving
the information.” West Penn Power Co., 339 NLRB 585,
587 (2003) (quoting Samaritan Medical Center, 319
NLRB 392, 398 (1995)), enfd. in relevant part 394 F.3d
233 (4th Cir. 2005); see Pan American Grain, 343
NLRB 318 (2004) (3-month delay); Bundy Corp., 292
NLRB 671 (1989) (2.5-month delay); Woodland Clinic,
331 NLRB 735, 736 (2000) (7-week delay).

App. 40
To determine whether an employer has failed to
furnish information in a timely manner, the Board considers a variety of factors, including the nature of the
information sought (including whether the requested
information sought is time sensitive); the difﬁculty in
obtaining it (including the complexity and extent of the
requested information); the amount of time the party
takes to provide it; the reasons for the delay in providing it; and whether the party contemporaneously communicates these reasons to the requesting party. West
Penn Power Co., 339 NLRB 585, 587 & fn. 6, 588 &
fn. 9. See also Postal Service, 308 NLRB 547, 551
(1992); Valley Inventory Service Inc., 295 NLRB 1163,
1166 (1989).
To repeat, the Union requested the information on
September 25, and Respondent provided two of the requests on December 13. Ultimately, Respondent
opened the Santa Clara Store on January 10, 2018. Applying the above factors, it is clear that Respondent unlawfully delayed in providing the information to the
Union. The information sought by the Union was not
difﬁcult to obtain, complex or voluminous. In fact, Respondent did not provide any indication that providing
such information was difﬁcult, and failed to offer any
explanation or reason why it delayed providing the information. As the Union did not even know when the
Santa Clara Store was to open, any delay in providing
this reasonably easy information to obtain was signiﬁcant. The Board has found that even a 2-month delay
in providing information to a union has been found to
be untimely. Gloversville Embossing Corp., 314 NLRB

App. 41
1258 (1994). Yes, the Santa Clara Store opened in January 2018, but the Union did not know of its opening
date when it ﬁrst requested this information in September.
Based on the foregoing, Respondent violated Section 8(a)(5) and (1) by failing and delaying from September 25 to December 13 to provide the following
requested information: whether employees who are
currently working in the bargaining unit may transfer
into the store and under what circumstances, and advise the Union on how to make arrangements for those
members who are working short hours, not working or
who are otherwise available to work in the new store.
CONCLUSIONS

OF

LAW

1. Nob Hill General Stores, Inc. (Respondent)
is, and has been at all times material, an employer
engaged in commerce and in a business affecting commerce within the meaning of Section 2(2), (6), and (7)
of the Act.
2. United Food and Commercial Workers Union,
Local 5 (Charging Party or the Union) is, and has been
at all times material, a labor organization within the
meaning of Section 2(5) of the Act.
3. Respondent violated Section 8(a)(5) and (1)
of the Act by failing and refusing to provide the Union with information requested on September 25, and
repeated on October 31, December 5, 19, and 27,
which was necessary and relevant to the Union’s

App. 42
performance of its duties as the collective-bargaining
representative of the unit employees.
4. By delaying in providing responses to the Union’s September 25 request until December 13, Respondent has violated Section 8(a)(5) and (1) of the Act.
5. The foregoing unfair labor practices affect
commerce within the meaning of Section 2(6) and (7)
of the Act.
REMEDY
Having found that Respondent has violated the
Act by failing and refusing to furnish the Union with
the information requested, and delaying providing
other information, and thereby engaged in certain unfair labor practices, I shall order it to cease and desist
therefrom and take certain afﬁrmative action designed
to effectuate the policies of the Act.10
On the basis of the foregoing ﬁndings of fact and
conclusions of law, and the entire record, I issue the
following recommended11
10

The Union requests that a wide variety of non-traditional
remedies, including those remedies recommended due to special
circumstances (CP Br. at 5-6). However, I decline to recommend
such remedies as the factual scenario in this matter does not warrant such remedies.
11
If no exceptions are ﬁled as provided by Sec. 102.46 of the
Board’s Rules and Regulations, the ﬁndings, conclusions, and recommended Order shall, as provided in Sec. 102.48 of the Rules,
be adopted by the Board and all objections to them shall be
deemed waived for all purposes.

App. 43
ORDER
Respondent, Nob Hill General Stores, Inc., its ofﬁcers, agents, successors, and assigns, shall
1.

Cease and desist from

(a) Failing and refusing to furnish United Food
and Commercial Workers Union, Local 5 with information requested on September 25, and repeated on
October 31, December 5, December 19, and December
27, that is relevant and necessary to the Union’s performance of its functions as the collective-bargaining
representative of Respondent’s unit employees.
(b) Unreasonably delaying from September 25 to
December 13 in providing responses to requests for relevant information by the Union.
(c) In any like or related manner interfering
with, restraining, or coercing employees in the exercise
of the rights guaranteed them by Section 7 of the Act.
2. Take the following afﬁrmative action necessary to effectuate the policies of the Act.
(a) Furnish to the Union, in a timely manner, the
information requested on September 25, and repeated
on October 31, December 5, 19, and 27, described as
follows:
(1) Please provide a list of classiﬁcations and
the number of employees in each classiﬁcation
to be initially hired in the store. Let us know
how many in each classiﬁcation will be full
time (40 hours per week) and part time.

App. 44
(3) Provide a list of those employees who are
currently working in the bargaining unit who
have been asked to work in the new store. We
want the names of those employees and the
dates that they were asked to work in the
store.
(4) Please provide a list of all current employees who have indicated their willingness
to work in the store or have agreed to work in
the store as of the date of this request and as
of the date of your reply. Provide the classiﬁcations they will be working in and the wage
rates promised them.
(5) Please provide a copy of any handbook
that [Respondent] intend[s] to apply to the
employees in the store.
(6) Please provide a statement of the ranges
of rates to be paid to each classiﬁcation of employee in the store.
(7) Please provide a copy of any beneﬁt plans
to be applicable to employees in the store.
(8) When will employees begin actually working in the store? What is the projected opening
date?
(b) Within 14 days after service by the Region,
post at its facility in Santa Clara, California, copies of
the attached notice marked “Appendix.”12 Copies of the
12

If this Order is enforced by a judgment of a United States
court of appeals, the words in each of the notices referenced
herein reading “Posted by Order of the National Labor Relations
Board” shall read “Posted Pursuant to a Judgment of the United

App. 45
notice, on forms provided by the Regional Director for
Region 20, after being signed by the Respondent’s authorized representative, shall be posted by Respondent
and maintained for 60 consecutive days in conspicuous
places including all places where notices to employees
are customarily posted. In addition to physical posting of paper notices, the notices shall be distributed
electronically, such as by email, posting on an intranet or an internet site, and/or other electronic means,
if Respondent customarily communicates with its
employees by such means. Reasonable steps shall be
taken by Respondent to ensure that the notices are not
altered, defaced, or covered by any other material. In
the event that, during the pendency of these proceedings, Respondent has gone out of business or closed the
facility involved in these proceedings, Respondent
shall duplicate and mail, at its own expense, a copy of
the notice to all current and former employees employed by Respondent at any time since September 25,
2017.
(c) Within 21 days after service by the Region,
ﬁle with the Regional Director a sworn certiﬁcation of
a responsible ofﬁcial on a form provided by the Region
attesting to the steps that Respondent has taken to
comply.
Dated, Washington, D.C. January 31, 2019

States Court of Appeals Enforcing an Order of the National Labor
Relations Board.”

App. 46
APPENDIX
NOTICE TO EMPLOYEES
POSTED BY ORDER OF THE
NATIONAL LABOR RELATIONS BOARD
An Agency of the United States Government
The National Labor Relations Board has found that we
violated Federal labor law and has ordered us to post
and obey this notice.
FEDERAL
RIGHT TO

LAW

GIVES YOU THE

Form, join, or assist a union
Choose representatives to bargain with
us on your behalf
Act together with other employees for
your beneﬁt and protection
Choose not to engage in any of these protected activities.
WE WILL NOT fail and refuse to furnish the United
Food and Commercial Workers Union, Local 5 (the
Union) with the information requested on September
25, 2017, and repeated on October 31, December 5, 19,
and 27, 2017, which is relevant and necessary to the
Union’s performance of its duties as the collectivebargaining representative of our employees in the bargaining unit.
WE WILL NOT unreasonably delay in providing responses to requests for relevant information from the
Union from September 25, 2017, to December 13, 2017.

App. 47
WE WILL NOT in any like or related manner interfere with, restrain, or coerce you in the exercise of your
rights under Section 7 of the National Labor Relations
Act.
WE WILL, in a timely manner, furnish the Union
with the information requested on September 25, 2017,
and repeated on October 31, December 5, 19, and 27,
2017, described as follows:
(1) Please provide a list of classiﬁcations and
the number of employees in each classiﬁcation
to be initially hired in the store. Let us know
how many in each classiﬁcation will be full
time (40 hours per week) and part time.
(3) Provide a list of those employees who are
currently working in the bargaining unit who
have been asked to work in the new store. We
want the names of those employees and the
dates that they were asked to work in the
store.
(4) Please provide a list of all current employees who have indicated their willingness
to work in the store or have agreed to work in
the store as of the date of this request and as
of the date of your reply. Provide the classiﬁcations they will be working in and the wage
rates promised them.
(5) Please provide a copy of any handbook
that [Respondent] intend[s] to apply to the
employees in the store.

App. 48
(6) Please provide a statement of the ranges
of rates to be paid to each classiﬁcation of employee in the store.
(7) Please provide a copy of any beneﬁt plans
to be applicable to employees in the store.
(8) When will employees begin actually working in the store? What is the projected opening
date?

App. 49
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NOB HILL GENERAL
STORES, INC.,
Petitioner,
v.
NATIONAL LABOR
RELATIONS BOARD,

No. 19-72429
NLRB No. 20-CA-209431
National Labor
Relations Board
ORDER
(Filed Feb. 4, 2021)

Respondent,
-----------------------------------------------------------------------

UNITED FOOD AND
COMMERCIAL WORKERS
UNION, LOCAL 5,
Intervenor.
NATIONAL LABOR
RELATIONS BOARD,
Petitioner,
v.
NOB HILL GENERAL
STORES, INC.,
Respondent,
-----------------------------------------------------------------------

UNITED FOOD AND
COMMERCIAL WORKERS
UNION, LOCAL 5,
Intervenor.

No. 19-72523
NLRB No. 20-CA-209431
National Labor
Relations Board

App. 50
Before: THOMAS, Chief Judge, and SCHROEDER and
BERZON, Circuit Judges.
The panel has voted to deny petitioner’s petition
for rehearing en banc. The full court has been advised
of the petition for rehearing en banc, and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for rehearing en banc is denied.

App. 51
Law Ofﬁce
of Henry F. Telfeian
P.O. Box 1277
Kings Beach, California 96143
Tel: 510-333-1645
Email: laborlawyer@gmail.com
February 18, 2021
Filed Via CM/ECF
Ms. Molly C. Dwyer
Clerk of Court
United States Court of Appeals
for the Ninth Circuit
95 Seventh Street
San Francisco, CA 94103
Re: Nob Hill General Stores, Inc. v. NLRB
Docket Nos. 19-72429 & 19-72523
Dear Ms. Dwyer:
Pursuant to Circuit Rule 36.4, Petitioner Nob Hill
General Stores, Inc. requests that the Court re-designate the Memorandum Decision it issued on December
24, 2020 in the above-referenced cases as an “Opinion”
of the Court and certify it for publication.
This request is made on the grounds the Memorandum clearly meets the “criteria” for publication established by Circuit Rule 36-2.
First, the Memorandum meets the criteria under
Circuit Rule 36.2 (a) in that it “establishes, alters, modiﬁes or clariﬁes a rule of federal law” because it, for the
ﬁrst time, provides for an exception or modiﬁcation or

App. 52
clariﬁcation to the uniformly accepted meaning of a
contractual “notwithstanding” clause.
Second, the Memorandum meets the criteria under Circuit Rule 36.2 (d) in that it involves a “legal or
factual issue of unique interest or substantial public
importance” in that contractual “notwithstanding”
clauses are ubiquitous and the Memorandum decision
provides future litigants of such clauses a potential argument that does not presently exist in established
precedent.
Third, the Memorandum meets the criteria under
Circuit Rule 36.2 (e) in that the Memorandum disposes
of an underlying NLRB decision that is published and
clariﬁes the Board’s ruling.
On any of these grounds, or all of them, the Memorandum meets this Circuit’s criteria for publication as
an Opinion of the Court.
Very truly yours,
s/ Henry F. Telfeian
Henry F. Telfeian
Attorney for Petitioner
Nob Hill General Store, Inc.

